No.

at the
Supreme Court of the United States

 

Thomas Rhodes,
Petitioner,
vs.

Michelle Smith, Warden,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Stephen M. West, states that all parties required to
be served have been served and that three true and
correct copies of the Petition for Writ of Certiorari
were served on the persons listed below on the 23rd
day of July, 2020, by depositing them with the United
States Post Office, with First Class Postage prepaid.

 

2020 — Bachman Legal Printing ™ (612) 339-9518 Ml 1-800-715-3582 Ml Fax (612) 337-8053
Matthew Frank

Assistant Attorney General

445 Minnesota Street, Suite 1800
St. Paul, MN 55101

Stephen M. West

Subscribed and sworn to before me this 23rd day of
July, 2020.

  
   

   
    

EDWIN R. MOTCH
NOTARY PUBLIC - MINNESOTA

LPO f6%
Notary Public
